A             Office of Audits
              Office of Inspector General
              U.S. General Services Administration




              Audit of the Public Buildings
              Service’s Compliance with
              Fee Limitations for
              Architect/Engineering Contracts
              Report Number A090172/P/4/R13004
              March 29, 2013




    A090172/P/4/R13004
                   Office of Audits
                   Office of Inspector General
                   U.S. General Services Administration


                                   REPORT ABSTRACT
                            Audit of the Public Buildings Service’s Compliance with Fee
OBJECTIVE                   Limitations for Architect/Engineering Contracts
 Our objective was to       Report Number Report A090172/P/4/R13004
 determine if the Public    March 29, 2013
 Buildings Service (PBS)
 has adequate controls in   WHAT WE FOUND
 place to ensure            We identified the following during our audit:
 Architect/Engineering
 (A/E) contracts comply     Finding – PBS lacks adequate guidance to determine compliance with
 with the 6 percent fee     the 6 percent fee limitation imposed by the FAR.
 limitation imposed by
 Federal Acquisition
 Regulation (FAR) Part      WHAT WE RECOMMEND
 15.404-4(c)(4)(i)(B).
                            Based on our audit findings, we recommend that the Commissioner of
                            the Public Buildings Service:
                               1. Implement clarifying guidance on applying the 6 percent fee
                                  limitation to A/E contracts.
                               2. Develop and implement controls to ensure compliance with the
                                  fee limitation imposed by FAR Part 15.404-4(c)(4)(i)(B).
                               3. Revise Forms 2630 and 2631 to require the A/E’s estimator and
                                  the independent government estimator to identify and separate
                                  services included in and excluded from the fee limitation.

                            MANAGEMENT COMMENTS
                            Management agreed with the audit finding and concurred with the
                            recommendations. Management’s comments are included in
                            Appendix B.
Southeast Sunbelt Audit
Office (JA-4)
401 W. Peachtree St
Suite 1701
Atlanta, GA 30308
(404) 331-5125




     A090172/P/4/R13004                          i
                    Office of Audits
                    Office of Inspector General
                    U.S. General Services Administration

 DATE:              March 29, 2013
 TO:                Dorothy Robyn
                    Commissioner, PBS (P)


 FROM:              Nicholas V. Painter
                    Regional Inspector General for Auditing
                    Southeast Sunbelt Region Field Audit Office (JA-4)
 SUBJECT:           Audit of the Public Buildings Service’s Compliance with
                    Fee Limitations for Architect/Engineering Contracts
                    Report Number A090172/P/4/R13004

This report presents the results of our audit of the Public Buildings Service compliance
with the 6 percent fee limitation imposed by the FAR.                  Our findings and
recommendations are summarized in the Report Abstract. Instructions regarding the
audit resolution process can be found in the email that transmitted this report.

Your written comments to the draft report are included in Appendix B of this report.

If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

       Nicholas Painter   Regional Inspector   nicholas.painter@gsaig.gov       404-331-5520
                          General For Auditing

       Michael Sinclair   Audit Manager            michael.sinclair@gsaig.gov   404-331-0382

       LaTasha Smith      Auditor-in-Charge        latasha.smith@gsaig.gov      404-331-0381

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.




A090172/P/4/R13004                            ii
Table of Contents
Introduction .............................................................................................................. 1

Results
Finding -        PBS lacks adequate guidance to determine compliance with the 6
                 percent fee limitation imposed by the FAR ... ......................................... 2

Conclusion………..…………………………………………………………………………4

Recommendations..………………………………………………………………………..4

Appendixes
Appendix A – Purpose, Scope, and Methodology ............................................ .A-1
Appendix B – Management’s Comments .......................................................... .B-1
Appendix C – Report Distribution………………………………………………….. .C-1




A090172/P/4/R13004                                            iii
Introduction
The American Recovery and Reinvestment Act (Recovery Act) provided the Public
Buildings Service (PBS) with $5.55 billion for its Federal Buildings Fund to convert
federal buildings into High-Performance Green Buildings, as well as to construct federal
buildings, courthouses, and land ports of entry. The Recovery Act mandated that $5
billion of those funds be obligated by September 30, 2010, and the remaining funds by
September 30, 2011.

PBS used Recovery Act funding to procure Architect/Engineering (A/E) services that
included the production and delivery of designs, plans, drawings, and specifications.
Federal Acquisition Regulation (FAR) Part 15.404-4(c)(4)(i)(B) limits the estimated cost
and fee for these services to 6 percent of the estimated cost of construction.

Results in Brief

PBS did not consistently apply the 6 percent FAR limitation because it lacks adequate
guidance to distinguish services related to the production and delivery of designs, plans,
drawings, and specifications from other services.




A090172/P/4/R13004                      1
Results
Finding – PBS lacks adequate guidance to determine compliance with the 6
percent fee limitation imposed by the FAR.

PBS lacks adequate guidance to ensure compliance with the 6 percent statutory A/E fee
limitation imposed by FAR Part 15.404-4(c)(4)(i)(B). The PBS Project Management
Guide (PM Guide) refers to PBS Manual 3420.1 (P3420.1) to identify costs and services
for the production and delivery of designs, plans, drawings, and specifications.
However, varying regional interpretations of this guidance have led to inconsistent
analyses of costs and determinations of FAR compliance.

The PM Guide instructs contractors to submit cost proposals to the General Services
Administration (GSA) on Forms 2630 and 2631. 1 These forms capture the cost
components (i.e., direct salary, consultant, other direct, and overhead) related to each
stage of design required to complete an A/E contract’s scope of work. However, the
forms do not differentiate between costs included in or excluded from the limitation.

PBS uses two principal methods to evaluate proposals for compliance with the fee
limitation: evaluation by (1) design stage or (2) basic/other services. Region 5 uses the
design stage approach and typically takes the sum of all costs for the concept design,
design development, and construction document stages (less reimbursable costs) and
divides it by the estimated cost of construction at award (ECCA). The resulting ratio
must not exceed 6 percent. This method may include costs that should be excluded
from the limitation, overstate the ratio, and cause a compliant contract to appear non-
compliant.

Using a chart from P3420.1, Regions 4 and 9 separate basic services (items included in
the limitation) from other services (items excluded from the limitation). The sum of basic
services is divided by the ECCA and the resulting ratio is used to determine compliance
with the statute. However, inclusion or exclusion of items from the calculation is at the
discretion of individual project teams. Consequently, excluding services that should be
included in the calculation may cause a non-compliant contract to appear compliant.
Conversely, including services that should be excluded may cause a compliant contract
to appear non-compliant.

The PM Guide requires that PBS identify the specific services and costs excluded from
the limitation in a Price Negotiation Memorandum (PNM). It further provides that an A/E
must resubmit the proposal if the design fee exceeds 6 percent. Of nine contracts we
sampled in Regions 4, 5, and 9, we found only one instance in which PBS identified the
excluded services in the PNM. PBS combined design services in all other cases and
did not perform additional analysis or require further action from the A/E. For the Prince
Jonah Kuhio Kalanianaole Federal Building and U.S. Courthouse in Region 9, the initial

1
  GSA Form 2630 is the Architect/Engineering Cost Estimate and GSA Form 2631 is the
Architect/Engineering Cost Estimate Summary.


A090172/P/4/R13004                      2
award amount appears to significantly exceed the 6 percent limitation. The PNM did not
address evaluation of the 6 percent limitation and the contracting officer did not respond
to requests for clarification. Given the lack of specific guidance, we were unable to
independently verify PBS’s calculations or compliance for this contract or our other
sampled contracts.

In 2011, PBS drafted a Procurement Instructional Bulletin to “provide information and
policy on the services and costs that are legally chargeable and those reasonably
excluded under the statutory limitation for A/E services.” The draft was informally
shared throughout PBS, but as of January 2013, it remains unofficial.

In addition to this audit, the GSA Office of Government wide Policy (OGP) conducted a
similar review in fiscal year 2012. OGP found that contracting officers did not always
apply the limitation on design services correctly; PNMs did not address the fee
limitation; and contingency costs were included in calculations. In some instances,
OGP was unable to determine how the evaluation was conducted.

Management Comments

In its response dated March 26, 2013, PBS management concurred with the audit
findings and recommendations.




A090172/P/4/R13004                      3
Conclusion
PBS lacks adequate guidance to evaluate Architect/Engineering contract compliance
with the 6 percent statutory limitation imposed by FAR. The regions reviewed have
varying interpretations of the available guidance, resulting in inconsistent methods to
determine which specific services and costs to include in the limitation. These methods
yield results that can distort compliance or non-compliance with the statute.

Recommendations

We recommend that the Commissioner of the Public Buildings Service:

   1. Implement clarifying guidance on applying the 6 percent fee limitation to
      Architect/Engineering contracts.

   2. Develop and implement controls to ensure compliance with the fee limitation
      imposed by FAR Part 15.404-4(c)(4)(i)(B).

   3. Revise Forms 2630 and 2631 to require the Architect/Engineering’s estimator
      and the independent government estimator to identify and separate services
      included in and excluded from the fee limitation.




A090172/P/4/R13004                     4
Appendix A – Purpose, Scope, and Methodology
Purpose

This audit is part of the Office of Inspector General’s oversight of General Services
Administration’s American Recovery and Reinvestment Act projects.

Scope

Our audit was based on a review of sampled contracts/projects selected from Regions
4, 5, and 9. The properties selected for testing were chosen because the projects’ total
initial Architect/Engineering award amounts appeared to exceed 6 percent of the
estimated costs of construction at award.

Methodology

To accomplish our objectives, we:

   •   Reviewed policies, procedures, and guidance from sources such as the Project
       Management Guide; PBS Insite; Federal Acquisition Regulation; General
       Services Administration Acquisition Manual; the Brooks Act; acquisition policy
       memos; Procurement Information Bulletins; and

   •   Conducted interviews with regional management, project managers, contracting
       officers, and other project staff to determine if/how PBS tracks compliance with
       the fee limitation for each project.

We conducted the audit between June 2012 and October 2012 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

The planning for this audit is based on the audit plan for oversight of Recovery Act
projects, as well as audit guidance being applied to all Recovery Act projects. A
separate guide was prepared for this audit.

Internal Controls

We limited our assessment of internal controls to those related to PBS compliance with
the 6 percent fee limitation imposed by FAR. We reviewed PBS policies and
procedures, performed audit procedures to assess the effectiveness of the controls, and
made recommendations to strengthen and improve the controls discussed in the results
section of this report.



A090172/P/4/R13004                    A-1
Appendix B – Management’s Comments




A090172/P/4/R13004     B-1
Appendix C – Report Distribution

Commissioner, PBS (P)

Acting Deputy Commissioner, PBS (PD)

PBS Chief of Staff (PB)

Senior Accountable Official for Recovery Act Activities (PCB)

Regional Recovery Executive (4PC1P)

Regional Recovery Executive (5PN)

Regional Recovery Executive (9P2PT)

National Program Office ARRA Executive, PBS (PCB)

Chief of Staff, PBS Office of Construction Programs (PCB)

Acting Regional Administrator (4A)

Regional Administrator (5A)

Regional Administrator (9A)

Regional Commissioner (4P)

Regional Commissioner (5P)

Acting Regional Commissioner (9P)

Division Director, GAO/IG Audit Response Division (H1C)

Audit Liaison, PBS (BCP)

Audit Liaisons, PBS (BCPA)

Audit Liaison, PBS (BPAA)

Assistant Inspector General for Auditing (JA)

Deputy Assistant Inspector General for Investigations (JID)




A090172/P/4/R13004                     C-1
